LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 7, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE NO. 21-184:

KEVIN BYRD V. RAY LAMB

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Seth W.
Stoughton on September 7, 2021, I caused service to be made pursuant to Rule 29 on
the following counsel for the Petitioner and Respondent:
PETITIONER:
Anna Aleksandrovna Bidwell
Institute for Justice
901 N. Glebe Rd.
Suite 900
Arlington, VA 22203
703-682-9320
abidwell@ij.org

RESPONDENT:
Ray Lamb
10576 Fallow Lane
Conroe, TX 77303
936-203-9782
gg24parknw117sp@yahoo.com

This service was effected by depositing three copies of the Motion for Leave to
File and Brief of Amicus Curiae Seth W. Stoughton in an official “first class mail”
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 7th day of September 2021.

